           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     DISABILITY DETERMINATION
          SERVICES’ USE OF
      SOCIAL SECURITY NUMBERS
  ON THIRD-PARTY CORRESPONDENCE


  September 2005    A-04-05-15098




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 19, 2005                                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Disability Determination Services’ Use of Social Security Numbers on Third-Party
        Correspondence (A-04-05-15098)


        OBJECTIVE

        The objective of our review was to determine whether Disability Determination Services
        (DDS) were complying with the Social Security Administration’s (SSA) revised policy
        limiting the disclosure of Social Security numbers (SSN) to third parties.1

        BACKGROUND

        The Disability Insurance (DI) program, established in 1954 under Title II of the Social
        Security Act, provides benefits to disabled wage earners and their families in the event
        the wage earner becomes disabled. In 1972, Congress enacted the Supplemental
        Security Income (SSI) program under Title XVI of the Social Security Act. The SSI
        program provides payments to financially needy individuals who are aged, blind or
        disabled.

        SSA is responsible for implementing policies for developing disability claims under the
        DI and SSI programs. Disability determinations under both DI and SSI are performed
        by a DDS in each State or other responsible jurisdiction according to Federal
        regulations.2 In carrying out its obligation, each DDS is responsible for determining
        claimants’ disabilities and ensuring adequate evidence is available to support its
        decisions. Each DDS is authorized to request relevant information from third parties to
        assist in processing a claimant’s disability application. As part of the disability
        determination process, SSA and its affiliated DDSs request about 15 million medical
        and other records from third parties, annually. These third parties include, but are not
        1
         For the purposes of this report, third parties include any source of information that is used in making a
        disability determination, other than the claimant, legal representative of a claimant, or parent/guardian of
        a dependent claimant.
        2
            20 C.F.R. part 404, subpart Q and part 416, subpart J.
Page 2 - The Commissioner


limited to, medical providers; employers; educational sources; and family, friends or
neighbors.

Our December 2002 report, Review of Social Security Administration Controls over the
Access, Disclosure and Use of Social Security Numbers by External Entities, identified
instances in which DDS personnel unnecessarily displayed SSNs on documents and
questionnaires sent to third parties. In response to this audit, SSA issued Policy
Instruction Disability Determination Services Administrators’ Letter (DDSAL) 638,
effective June 20, 2003, to DDSs advising that SSNs should not be displayed on
documents sent to external entities that do not need to know the individual’s SSN. SSA
then issued Policy Instruction AM-03163, effective September 16, 2003, to DDSs
advising that claimants’ SSNs should be omitted or redacted when personnel send
certain forms to third parties. Neither of these policies, however, specified what third
parties had a genuine “need” for the claimant’s SSN when the DDSs were requesting
information for the disability determination process.

In December 2004, the President signed into law the Intelligence Reform and Terrorism
Prevention Act of 2004 (Act). The Act requires that the Commissioner of Social
Security, in consultation with the Secretary of Homeland Security, form an interagency
task force to further improve the security of social security cards and numbers.3 In
response to this legislation, SSA workgroups are exploring better methods of securing
SSNs, including determining whether SSNs should be printed on the millions of notices
it mails to the public, annually.

SSA is implementing the electronic disability (eDib) program at all DDSs. When eDib is
fully implemented, records related to DI claims will be maintained in a paperless,
electronic folder. During the transition to eDib, DDSs will process claims and perform
continuing disability reviews in both a paper and electronic environment. In either
environment, DDSs can still include or exclude the SSN on correspondence sent to third
parties.

See Appendix B for the scope and methodology of our review.

RESULTS OF REVIEW
SSA’s recent guidance to DDSs did not specify what third parties “have a need to know”
the claimant’s SSN. Therefore, each DDS could interpret the guidance as it deemed
appropriate. As a result, DDSs inconsistently applied SSA’s policy and included the
SSN on correspondence to various third parties, many of whom we believe did not need
the SSN to locate and provide disability information to the DDSs. Given the prevalence
of identity theft and the inherent and recent legislatively mandated responsibility SSA
has for ensuring SSN integrity, we believe SSA and its partners must be zealous in
securing the privacy and limiting any unnecessary exposure of these numbers.


3
    Pub. L. No. 108-458, §7213(b).
Page 3 - The Commissioner


Specifically, we believe SSA should set a standard for the rest of Government and
private industry.

Questionnaire responses and accompanying documentation provided by all 52 DDSs
identified that 51 (98 percent) of the 52 DDSs provide SSNs to at least 1 of the following
third parties: medical providers, employers, educational sources, and friends and/or
relatives of the claimant. In addition, many of the DDSs disclosed SSNs to interpreters
who assisted claimants who did not speak English or were hearing-impaired. The
following table details, by third party, the number of DDSs that disclosed the SSN when
requesting or obtaining disability-related information.

                     Table 1: DDS’ Disclosure of SSNs to Third Parties

                                 Number of        Number of         Percentage of DDSs
                               DDSs that Used        DDSs         that Disclosed the SSN
                                     the        that Disclosed    (When Third Party was
           Third Party           Third Party       the SSN                 Used)
    Medical Providers                 52              51                     98
    Educational Community             51              44                     86
    Employers                         38              32                     84
    Language Interpreters             45              21                     47
    Friends/Family/Neighbors          51              14                     27

During our review, we identified one DDS that discontinued the practice of releasing
SSN information to any third-party source. The Vermont DDS stopped using SSNs on
third-party correspondence in August 2003. In lieu of SSNs, the DDS used case
numbers on correspondence to third parties, including medical sources and employers.
The DDS’ effort to eliminate SSNs from third-party correspondence was not costly and
met little resistance from third parties. We believe the practice employed by the
Vermont DDS demonstrates that disability information can be obtained from third parties
without disclosing a claimant’s SSN.

In March 2005, after we issued our questionnaire, SSA issued a new policy regarding
how DDSs should obtain and develop evidence from the education community.4 To our
concern, the policy specifically instructs DDSs to include the claimant’s SSN on certain
forms sent to educational sources. This new policy appears contrary to SSA’s earlier
policy instruction that advised the DDSs to omit or redact the SSN on forms sent to third
parties without a need for the number. Further, we believe the new policy is contrary to
SSA's efforts to improve SSN security and to comply with provisions of the Act.




4
 Program Operations Manual System (POMS) DI 22505.028, Developing Evidence from the Education
Community.
Page 4 - The Commissioner


Finally, SSA’s eDib program does not always eliminate DDS’ disclosure of SSNs on
third-party correspondence. The eDib program automatically generates standardized
requests for third-party information. Unless suppressed, the program software causes
the SSN to be printed on this correspondence. Based on conversations with
responsible SSA personnel, we determined the Agency has encouraged DDSs to
suppress the SSN on some third-party correspondence. However, on other forms, SSA
requires the DDSs to include the SSN.

We recognize the SSN is a key component in SSA’s disability determination process
and, until recently, using and disclosing a claimant’s SSN, when necessary, to facilitate
this process was not problematic. However, with the ever-increasing occurrences of
identity theft, we believe the status quo is no longer appropriate. Accordingly, we
encourage SSA and its partners to consider reducing the frequency with which they
disclose SSNs to third parties to gather disability-related information.

MEDICAL PROVIDERS

We found that 51 (98 percent) of the 52 DDSs provided SSNs on written
correspondence to physicians, hospitals, psychiatrists, and consultative examination
providers. Many of the DDSs explained the SSN was needed on written
correspondence to ensure they received information for the correct disability applicant.
The DDSs explained that this practice was in compliance with SSA’s Policy Instruction
DDSAL 638, because the medical providers needed to know the SSNs to ensure
accurate record retrieval. Further, other SSA policy instructs DDSs to include the
claimant’s SSN on information requests sent to medical providers5 and to ensure the
claimant’s SSN is on medical reports received from the providers.6

We agree it is imperative that DDSs obtain medical information for the correct person.
We also acknowledge that many medical sources use the SSN as a unique patient
identifier and therefore already have a claimant’s SSN. However, not all medical
information used to determine a claimant’s disability is obtained from the claimant’s
treating physician or from prior medical records. In fact, DDSs routinely contract with
medical providers to obtain consultative examinations regarding a claimant’s current
disability. In many cases, these medical providers have not previously treated the
claimant and therefore do not know the claimant’s SSN. In these situations, the medical
providers do not need to know the SSN to correctly identify the claimant or to retrieve
medical records. Accordingly, we believe SSA should consider whether DDSs need to
include the SSN on letters or forms sent to health care providers who are seeing the
claimant for the first time.




5
    POMS DI 22505.021, Developing Evidence from Hospitals and Clinics.
6
    POMS DI 39542.240, Consultative Examination Reports – DDS.
Page 5 - The Commissioner


Also, our analysis of the initial DDS questionnaire responses determined that one DDS
had ceased including SSNs on correspondence to medical providers and had begun
using an internal case number. DDS representatives told us eliminating the SSN from
third-party correspondence required nominal cost and met little resistance from medical
providers. We believe this practice demonstrates that other DDSs may be able to
discontinue routinely including SSNs on correspondence to medical third-party sources
thereby limiting the exposure of claimants’ SSNs to potential misuse.

EDUCATIONAL SOURCES

Only one of the DDSs responded that it did not collect information from educational
sources when processing disability claims. Of the remaining 51 DDSs, 44 (86 percent)
provided SSNs on written correspondence to educational sources, such as schools and
teachers.

We do not believe educational sources need a claimant’s SSN. The claimant’s name
and, if necessary, date of birth should be adequate for the educational source to
accurately identify the claimant in question. In fact, before our audit, seven DDSs—
including two of SSA’s larger DDSs—eliminated the SSN from correspondence sent to
educational sources. Also, in response to our audit and questionnaire, one DDS
developed and issued policy advising its staff not to include SSNs on teacher forms or
letters to schools because most schools identify students using the date of birth.
Further, an official at this DDS stated the process of eliminating the SSN on
correspondence to educational sources required minimal effort and little cost. The DDS
official also stated that the change did not hinder the DDS’ ability to obtain required
information from educational sources. We applaud the proactive measures taken by the
DDS.

New SSA Policy Requires the SSN on Forms Sent to Educational Sources

In March 2005, SSA issued a new policy, POMS DI 22505.028, instructing DDSs on
obtaining and developing evidence from the education community. The policy explains
what forms should be used, what information should be obtained, and from whom it
should be obtained. Contrary to SSA’s earlier instructions to the DDSs and its ongoing
efforts to protect the SSN, this new policy specifically instructs DDSs to include the
claimant’s SSN on forms sent to educational sources. The forms identified in the policy
are listed below.

•   Form SSA-827, Authorization to Release Information to the Social Security
    Administration. Federal laws and regulations require that schools have specific
    authorization from a child’s parent, caregiver, or guardian before disclosing
    information about the individual to a third party. All of SSA’s requests for information
    from the education community must be sent under the cover of a Form SSA-827.
Page 6 - The Commissioner


•   Form SSA-5665, Teacher Questionnaire, requests information directly from teachers
    or instructors based on their personal observations of an individual’s day-to-day
    functioning in both academic activities and social interactions.

•   Form SSA-5666, Request for Administrative Information, requests information from
    administrative personnel that can be obtained from an individual’s existing education
    records. For example, information from psychological and academic testing,
    speech-language therapy progress notes, and comprehensive evaluations.

We discussed the new policy with SSA to determine its rationale for requiring that DDSs
include the claimant’s SSN on informational requests sent to the educational sources.
The SSA official responsible for developing the policy explained that most schools and
other educational institutions need to know a claimant’s SSN to ensure that students’
records are accurately identified and retrieved efficiently and timely. We understand the
information DDSs obtain from educational sources is critical to the claims process and
must be properly matched to SSA’s claimants. However, we do not believe educational
sources routinely need an SSN to accurately identify information related to a
student/claimant. This is evident in the fact that, before this policy was issued,
seven DDSs eliminated the SSN from correspondence sent to educational sources.
Further, in response to our questionnaire, none of the seven DDSs reported this change
was met with resistance from the educational community. Accordingly, we encourage
SSA to reconsider the appropriateness of this recently issued policy.

FRIENDS AND/OR RELATIVES OF THE CLAIMANT

Fifty-one of the DDSs collected information from a claimant’s friends and/or relatives
when making disability determinations. Of the 51 DDSs, 14 (27 percent) included the
claimant’s SSN on correspondence to these third-party sources.

We do not believe friends and/or relatives of a disability claimant have a need to know
the claimant’s SSN. These third parties, by definition, already have some type of
relationship with the claimant. No information other than the name should be necessary
to identify the claimant to friends or family. Accordingly, we believe SSA should take
measures to ensure DDSs do not disclose claimants’ SSNs to friends and/or relatives.

EMPLOYERS

Fourteen of the DDSs responded that they did not send correspondence to a claimant’s
current or former employers to assist in making a disability determination. However, of
the 38 DDSs that did obtain information from employers, 32 (84 percent) included
claimants’ SSNs on correspondence to those employers.
Page 7 - The Commissioner


As with medical sources, we acknowledge employers already have their employees’
SSNs. Employers use employees’ SSNs for various purposes, including payroll,
providing health and other insurance benefits, and reporting wages to SSA. However,
six of the DDSs did not provide claimants’ SSNs to sources of work information. We
believe this practice reduces the risk of fraudulent SSN attainment and misuse.

INTERPRETERS

DDSs occasionally use interpreters to assist claimants who do not speak English or are
hearing-impaired. In fact, 45 of the 52 DDSs responded that they used interpreter
services. Of these, 21 (47 percent) provided the claimant’s SSN to interpreters. In
many cases, these interpreters also had access to other personal information, such as
dates of birth and addresses.

We believe the disclosure of SSNs to interpreters entails significant risk because most
DDSs do not perform background checks on interpreters or require that the interpreters
sign an agreement prohibiting the disclosure of claimants’ SSNs or other personal
information to unauthorized parties. In response to our audit and questionnaire, one
DDS developed and issued policy advising its staff not to provide SSNs to interpreters.
Also, with minimal effort, the DDS developed an agreement that must be signed by all
interpreters who work for the DDS. This document requires that interpreters agree not
to disclose any information regarding disability claimants learned through acting as an
interpreter for the DDS. We applaud the proactive measures taken by this DDS.

ELIMINATING THE SSN FROM THIRD-PARTY CORRESPONDENCE

The Vermont DDS did not include claimants’ SSNs on correspondence to any third
parties. An official from the DDS stated it stopped using SSNs on third-party
correspondence in August 2003 after SSA issued policy advising all DDSs to safeguard
SSNs. In lieu of SSNs, the DDS used case numbers on correspondence, including
requests for information from medical sources and employers. In addition, the Vermont
DDS did not disclose SSNs to interpreters yet still required that they sign a statement
agreeing to keep all claimant information confidential.

The DDS Director stated that the DDS’ efforts to eliminate the SSN from third-party
correspondence required minimal work. Although the DDS did not specifically track the
conversion costs, the Director believed the costs were insignificant. Also, the Director
stated the DDS encountered little resistance to the change.

The practice employed by the Vermont DDS demonstrates that information can be
obtained from third parties without disclosing a claimant’s SSN. Although we anticipate
many DDSs would encounter some challenges in eliminating the SSN from third-party
correspondence, we believe SSA should be in the national forefront of establishing
policy and practice by limiting SSN use and disclosure.
Page 8 - The Commissioner


IMPACT OF ELECTRONIC DISABILITY ON SSN USAGE

DDSs nationwide are implementing SSA’s eDib program. When fully implemented,
eDib will enable DDSs to maintain DI related documents in a paperless, electronic
folder. Until eDib is fully implemented, DDSs will process claims and perform continuing
disability reviews in both a paper and electronic environment.

The Vermont DDS, which eliminated the SSN from third-party correspondence in the
paper environment, is transitioning its case workload to the eDib environment. As such,
some DI cases are being processed using an electronic case folder. The Vermont DDS
Director informed us that third-party correspondence automatically generated through
eDib included claimants’ SSNs. SSA’s eDib program generates third-party informational
requests, in paper form, that are mailed to various informational sources. The requests
also act as a return cover letter. The request letters are electronically imprinted with a
bar code, so when third parties return the letters and the requested information to the
DDS, the bar code can be used to electronically track and file information at the case
level. However, unless it is purposely suppressed, the claimant’s SSN is printed under
the bar code.

We discussed this matter with responsible SSA officials. The officials informed us that
the Agency was aware of the issue and have encouraged DDSs to suppress the
number on some notices. However, Agency officials also stated that the SSN will
continue to be included on certain forms sent to third parties. For example, when
obtaining medical evidence, SSA requires that DDSs include Form SSA-827,
Authorization to Disclose Information to the Social Security Administration, with each
request sent to medical healthcare providers. Although we understand the necessity of
form SSA-827, we do not believe the claimant’s SSN needs to be disclosed on the form.
Accordingly, we believe SSA should assess the viability of eliminating the SSN from
form SSA-827 or explore alternatives to displaying the entire SSN on the form.

CONCLUSION AND RECOMMENDATIONS

In our opinion, each time an individual’s SSN is divulged, the potential for fraudulent
activity increases. In fact, according to a 2002 Government Accountability Office report,
SSNs, along with names and birth certificates, are among the three personal identifiers
most often sought by identity thieves.7 Despite the potential risks associated with
providing SSNs to third parties, most DDSs continue this practice. While most DDSs
believe some SSN disclosure to third parties is warranted, one DDS proved that
information can be collected from third parties—including medical sources—without
divulging a claimant’s SSN.




7
 Social Security Numbers – Government Benefits from SSN Use but Could Provide Better Safeguards,
GAO-02-352 (May 2002).
Page 9 - The Commissioner


Recently issued policy requiring that DDSs include the SSN on information requests to
the educational community appears contrary to earlier SSA policy instructing DDSs to
eliminate the SSN from correspondence to third parties that do not need the SSN. We
do not believe educational sources need a claimant’s SSN to provide disability-related
information about that individual.

As SSA and the DDSs migrate their DI case workload to eDib, SSN disclosure to third
parties is still a concern. Currently, third-party correspondence generated through eDib
includes the claimant’s SSN unless the DDSs specifically suppress the SSN. Further,
as part of the eDib procedures, DDSs are instructed to include form SSA-827 (which
includes the claimant’s SSN) with each request sent to medical providers.

We recommend that SSA:
1. Clarify existing policy to define what third parties may be provided a claimant’s SSN
   as a part of the DDS’s disability determination process. To ensure SSN integrity, we
   believe the SSN should only be disclosed when it is critical to a third party’s ability to
   adequately respond to the DDS’s information request.
2. Evaluate the viability of eliminating a claimant’s SSN from the Form SSA-827 or
   explore alternatives to displaying the entire SSN on the form.
3. Implement policy requiring DDSs to develop and use confidentiality agreements
   prohibiting language interpreters from disclosing SSNs and other personal
   information to unauthorized parties.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with Recommendations 1 and 2 of our report. However, the Agency
disagreed with Recommendation 3. In response to this recommendation, SSA stated its
policy requires qualified language interpreters to comply with SSA’s requirements to
protect confidential information. The Agency further explained that, because DDSs do
not always contract directly with language interpreters for interpretive services, it is not
practical to implement our recommendation. However, SSA stated it recognizes the
importance of protecting confidential information, and as a result of our
recommendation, will issue policy that reminds DDSs to inform language interpreters
that they are prohibited from disclosing SSNs and other personal information to
unauthorized parties. Although, we believe such notification would be best
communicated to language interpreters via written confidentiality agreements, SSA’s
proposed action addresses the intent of our recommendation. Therefore, we consider
SSA’s response to the recommendation adequate. The full text of SSA’s comments is
included in Appendix C.



                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
Act           Intelligence Reform and Terrorism Prevention Act of 2004
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DDSAL         Disability Determination Services Administrators’ Letter
DI            Disability Insurance
eDib          Electronic Disability
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
SSN           Social Security Number
                                                                     Appendix B

Scope and Methodology
Our review was limited to gaining an understanding of the extent to which Disability
Determination Services (DDS) disclosed Social Security numbers (SSN) to third parties.
We did not attempt to define the risks associated with SSN disclosure, other than the
known risks of identity theft. Additionally, we did not attempt to identify any specific
instances of fraudulent activity when DDSs disclosed SSNs to third parties.

To accomplish our objective, we distributed a questionnaire to the Directors of the
Centers for Disability in all 10 Social Security Administration (SSA) regions. The
Directors then distributed the questionnaire to each DDS in their respective areas of
jurisdiction. Each DDS was asked to provide detailed answers, as well as examples of
forms and letters used to obtain information from third parties. We reviewed each of the
responses from the 52 DDSs. Where necessary, we followed up to determine the
extent to which SSNs were included on third-party correspondence DDSs used to obtain
information related to disability determinations. We also held discussions with
representatives from the Office of Disability and Income Security Programs regarding
the impact SSA’s electronic disability process has on DDSs’ efforts to limit SSN
disclosure to third parties. The SSA entity reviewed was the Office of Disability and
Income Security Programs. We conducted our audit from November 2004 through April
2005 in accordance with generally accepted government auditing standards.
                  Appendix C

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM

                                                                                34295-24-1338
Date:      September 6, 2005                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Disability Determination Services’ Use of
           Social Security Numbers on Third-Party Correspondence” (A-04-05-15098)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report’s recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "DISABILITY DETERMINATION SERVICES' USE OF SOCIAL
SECURITY NUMBERS ON THIRD-PARTY CORRESPONDENCE" (A-04-05-
15098)


Thank you for the opportunity to review and comment on the draft report. Over the
years, SSA has worked diligently to refine our own internal processes and has actively
participated in interagency workgroups to ensure that the Social Security number (SSN)
is only disclosed when there is an absolute business need. We appreciate OIG’s efforts in
identifying areas where potential weaknesses exist and we found this report helpful in
providing recommendations that will assist us in taking the steps necessary to protect the
integrity of the SSN for the adjudication of our disability claims.

We agree that the Vermont Disability Determination Services (DDS) practice appears to
be an effective means of protecting the SSN for disability claimants. If necessary in the
coming months, we will obtain additional information on their experiences with the
elimination of the SSN on correspondence and other claims-related material.

Regarding the finding that the eDib program does not always eliminate the DDS'
disclosure of SSNs on third-party correspondence, it is true that DDSs are encouraged to
suppress the SSN on some third-party correspondence and that we require the DDSs to
include the SSN on some forms. As we continue to develop the system, we will explore
options for a systems change that would display only the last four digits on third-party
correspondence. In rare cases, when the entire SSN must be on the third-party
correspondence, DDS personnel would have an optional mechanism for manually typing
in the entire SSN. However, it will take some time to get software changes in place.

Our responses to the specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should clarify existing policy to define what
third parties may be provided a claimant’s SSN as a part of the DDS’s disability
determination process. To ensure SSN integrity, we believe the SSN should only be
disclosed when it is critical to a third party’s ability to adequately respond to the DDS’s
information request.

Response

We agree. A claimant’s SSN should only be disclosed when it is critical to a third party’s
ability to adequately respond to a DDS’s information request. We will review and, to the
extent necessary, clarify our existing policy to more clearly define which third parties
should be provided a claimant’s full or partial SSN as part of the DDS evidence
collection process.



                                            C-2
Recommendation 2

SSA should evaluate the viability of eliminating a claimant’s SSN from the form
SSA-827 or explore alternatives to displaying the entire SSN on the form.

Response

We agree. We will evaluate the viability of either eliminating a claimant’s full SSN from the
SSA-827 (Authorization to Disclose Information to SSA) or, alternatively, displaying
only the last four digits of the SSN. We note that because some medical records are
stored by SSN, the DDSs will need to ensure they provide third parties with enough
identifying information to distinguish between individuals with common names.

Recommendation 3

Implement policy requiring DDSs to develop and use confidentiality agreements
prohibiting language interpreters from disclosing SSNs and other personal information to
unauthorized parties.

Response

We disagree. Our Program and Operations Manual System (POMS) Disability
Instruction (DI) 23040 contains comprehensive DDS instructions regarding the use of
language interpreters. Additionally, SSA requires all “qualified interpreters” to agree to
comply with disclosure and confidentiality of information requirements. There are
various sources for obtaining interpreters, including the SSA nationwide Telephone
Interpreter Services (TIS), State-contracted services and DDS and field office employees.
Since there is no one source for interpreters, it is not feasible to implement the
recommendation, particularly when the DDS uses the SSA TIS service or a State-
administered service to which it does not have direct connection. We will, however,
include instructions in POMS reminding the DDS to inform interpreters that they are
prohibited from disclosing the SSN and other personal information to unauthorized
parties.




                                           C-3
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Mike Leibrecht, Senior Auditor

   Valerie Ledbetter, Auditor

   Kim Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-04-05-15098.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
